No.

i

SUPREME COURT OF THE UNITED STATES

ARIAN BROWN
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
Appeal No. 18-5084 (6th Cir.)
District Court No. 5:16-cr-00097 (E.D. KY - Lexington)
PETITION FOR WRIT OF CERTIORARI

Arian Brown, pro se
Reg. No. 13117-032
Legal Mail - Open Only in the Presence of the Inmate
United States Penitentiary Canaan
PO Box 300
Waymart, PA 18472

QUESTION PRESENTED

Did the United States Court of Appeals for the Sixth Circuit
abuse its discretion and err by denying the Motion to Recall
the Mandate, when The United States Court of Appeals for the
Sixth Circuit elected to rehear en banc the precedential foundation
for affirming the sentence enhancement under the Career Criminal
Guideline, on the day the conviction became final in this case,
and subsequently reversed the erroneous precedent relied upon
to affirm the excessibe and incorrect sentence in this case?

-i-

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
United States v. Brown, No. 5:16-cr-00097-DCR-CJS (E.D. KY-Lexington)
United States v. Brown, No. 18-5084 (6th Cir.)
United States v. Brown, No. 5:19-cv-00244-DCR-CJS (E.D. KY-Lexington)
United States v. Brown, No. 19-6269/6270 (6th Cir.)

-ii-

TABLE OF CONTENTS

Question Presented

X

List of Parties

ii

Related Cases

ii.

Table of Contents

iii

Table of Authorities

iv

Opinions Below .

1

Jurisdiction

2

Constitutional Provision Involved

3

Statement of the Case

4

Reasons for Granting Petition .

8

Conclusion

12

Certificate of Service

13

INDEX OF APPENDICIES

APPENDIX A - Order of the United States Court of Appeals for
the Sixth Circuit Denying Brown's Motion to
Recall the Mandate
APPENDIX B - Judgment of the United States District Court for the
Eastern District of Kentucky
APPENDIX C - Order of the United States Court of Appeals for the
Sixth Circuit affirming Judgment and Sentence
APPENDIX D - Order of the United States Court of Appeals for the
Sixth Circuit Denying Petition for Rehearing

-iii-

TABLE OF AUTHORITIES

CASES
Apprendi v. New Jersey,
530 U.S. 466, 120 S.Ct. 2348

147 L.Ed.2d 435 (2000).

.11

BellSouth Corp. v. FCC, 96 F.3d 849 (6th Cir. 1996) .

.10

Bottone v. United States, 350 F.3d 59 (2d Cir. 2003).

.11

Bullard v. United States, 937 F.3d 654 (6th Cir. 2019)

9-10

-Calderon v. Thompson,
523 U.S. 538, 118 S.Ct. 1489, 140 L.Ed.2d 728 (1998).

. 8

Clay v. United States,
537 U.S. 522, 123 S.Ct. 1072, 155 L.Ed.2d 88 (2003) .

. 9

Griffith v. Kentucky,
479 U.S. 314, 107 S.Ct. 708, 93 L.Ed.2d 649 (1987)

.12.

.

Patterson v. Crab, 904 F.2d 1179 (7th Cir. 1990)
Patterson v. Haskins, 470 F.3d 645 (6th Cir. 2006)

. 8
8,10

United States v. Evans, 699 F.3d 858 (6th Cir. 2102).

8,9

United States v. Havis, 927 F.3d 382 (6th Cir. 2019).

9,10,11

United States v. Johnson,
457 U.S. 537, 102 S.Ct. 2579, 73 L.Ed.2d 202 (1982) .

.12

United States v. Murray, 20 F.Appx. 398 (6th Cir. 2001)

10,11

United States v. Solomon
2019 U.S. App. LEXIS 19861 (6th Cir. 20197:

.------- t~

10-11

Zipfel v. Haliburton Co., 861 F.2d 565 (9th Cir. 1988)

.11

GUIDELINE PROVISIONS
USSG §4Bl.1 .

. 8

USSG §4B1.2 .

. 5

STATUTES
18 U.S.C. §994

. 9

28 U.S.C. §2255

.

10,9

-iv-

OPINIONS BELOW
The order of The United States Court of Appeals for the Sixth
Circuit appears at Appendix A to the Petition and is unpublished.

The Judgment of The United States District Court for the Eastern
District of Kentucky appears at Appendix B to the Petition and
is unpublished.

-1-

JURISDICTION
Defendant-Petitioner Arian Brown was charged with committing
an offense against the United States of America, for which The
United States District Court had subject matter jurisdiction
pursuant to 18 U.S.C. §3231, granting to The United States District
Courts original exclusive jurisdicton over all offenses committed
against the laws of the United States of America, including Brown's
offense of conviction under 21 U.S.C §841(a)(l).

The United States Court of Appeals for the Sixth Circuit had
appellate jurisdiction pursuant to 28 U.S.C. §1291 and 18 U.S.C.
§3742 over the final judgment and sentence of the District Court
for the Eastern District of Kentucky, entered against Brown.
[Appendix B]

The United States Gourt of Appeals affirmed Brown's

sentence and conviction. [Appendix C]

After issuing the Mandate,

The United States Court of Appeals refused to recall that Mandate
on December 19, 2019. [Appendix A]

Petition for Rehearing was denied by The United States Court
of Appeals for the Sixth Circuit. [Appendix D]
on March 2 , 2020-!-

This denial was

This Honorable Court now has discretionary

jurisdiction pursuant to 28 U.S.C. §1257(a).

1.

Brown requested additional time to file This Petition, and
was notified that 60 additional days were permitted by This
Court's March 19, 2020 Order.
-2-

I

CONSTITUTIONAL PROVISION INVOLVED

This case involves the Due Process Glauses in The United States
Constitution.

}

t

-3-

STATEMENT OF THE CASE

On November 3, 2016, Defendant-Petitioner Arian Brown was indicted
with one count of possession with intent to distribute 40 grams
or more of fentanyl, and one count of possessing with intent
to distribute heroin.

Both of these counts cited violations ,

of 21 U.S.C . §841(a) (1). [RE 1:Indictment]2

A Superseding Indictment

[RE 52] was returned on May 4, 2017, adding one count of conspiracy
to possess with intent to distribute heroin, citing violation
of 21 U.S.C. §841.

Plea negotiations revealed a dispute regarding Brown's qualification
as a Career Offender under the United States Sentencing Guidelines
Manual (USSG) .

Therefore, Brown entered a plea of guilty to

the original two counts on September 22, 2017 [RE 106], pursuant
to a written Plea Agreement [RE 107] which indicated enhanced
statutory punishments of imprisonment from 10 years to life as
to Count One

and imprisonment for up to 30 years as to Count

Two. [Id., pp.2-3]

The parties stipulated that the relevant

conduct included the equivalency of at least 400kg but less than
700kg of marijuana for USSG calculations, [ibid.]

The Probation Office then prepared a Presentence Investigation
Report (PSI), employing the 2016 version of the USSG. [RE 138]
The PSI indicated a base offense level of 26, pursuant to USSG
2.

"RE" indicates the "Record Entries" in the underlying criminal
case number 5:16-cr-00097 (E.D. KY-Lexington).

-4-

§ 2D1.1(c)(7) [RE 138, p.6], and a criminal history category of
IV. [id., p.7]

The resulting guideline range recommended 92

to 115 months of imprisonment, which failed to reach the mandatory
minimum threshold regarding Count One (10 years), thereby increasing
Brown's USSG prescribed sentence to 120 months by default. See
USSG §5Gl.l(b).

However, the PSI found Brown to be a Career Offender pursuant
to USSG §4Bl.l(a) because the instant offenses constituted con­
trolled substance offenses, which Brown committed when he was
at least eighteen years of age, and after acquiring two prior
convictions which the PSI deemed to be either a "crime of violence"
or a "controlled substance offense" as those phrases are defined
in USSG §4Bl.2. [RE 138, p.7]

This Career Offender designation

bumped Brown's offense level up to 37, and simultaneously increased
his criminal history category to VI. See USSG §4Bl.l(b).

Brown

made objections to the Career Offender enhancement [see RE 127],
and the District Court overruled them [RE 130], adopting the
USSG calculations outlined in the PSI.

Brown was sentenced on January 12, 2018 [RE 131], where he renewed
his objections to the Career Offender classification [RE 138,
pp.24-28] to no avail,

The District Court found Brown to qualify

for the enhancement, [id.

pp.33-34]

After the 2 level reward

for acceptance of responsibility, pursuant to USSG §3El.l(a),
Brown's final offense level was 35, in criminal history category
VI. [RE 138, p.7]

The resulting recommended sentencing range

-5-

was 292-365 months of imprisonment,

Brown received 330 months

in prison, to be followed by 8 years of supervised release. [RE
133]

Brown filed a timely Notice of Appeal on January 22, 2018. [RE
134]

Appointed appellate counsel filed a Motion to Withdraw

Pursuant to Anders v. California, 386 U.S. 738, 87 S.Ct. 1396,
18 L.Ed.2d 493 (1967), which indicated that "legal research revealed
no good-faith issues to appeal." [RE 167, p.2]

After reviewing

the record in accord with Pension v. Ohio, 488 U.S. 75,82-83,
109 S.Ct. 346, 102 L.Ed.2d 300,310 (1988), The United States
Court of Appeals for the Sixth Circuit stated "no arguable grounds
for appeal exist," [RE 167, p.2], granted counsel's Motion to
Withdraw on October 16, 2018, and affirmed the District Court's
Judgment, [id., p.6]

Brown then submitted a Petition for Rehearing,

pro se, on October 28, 2018.

Rehearing was denied January 17,

2019.

The Mandate in question here was issued on January 24,

2019.

Brown then filed a pro se Petition for Rehearing en banc♦

but due to Brown's legal illiteracy, such a petition was not
timely.

Therefore, the Clerk returned this late Petition back

to Brown unfiled.

No Petition for Writ of Certiorari was filed

to This Court.

Brown's conviction became final on April 18, 2019. See Clay v.
United States, 537 U.S. 522,524-25, 123 S.Ct. 1072, 155 L.Ed.2d
88,92-93 (2003), see also Sup. Ct. Rule 13(1).

However, that

very same day, The United States Court of Appeals for the Sixth

-6-

Circuit called into question the integrity of the Panel's affir­
mation of Brown's sentence, and granted rehearing en banc in
United States v. Havis, 907 F.3d 439 (6th Cir. 2018)(reh'g en
banc granted, Opinion vacated, 921 F.3d 628 (6th Cir. 2019),
and on reh'g en banc, 927 F.3d 382 (6th Cir. 2019)(en banc)(per
curiam)).

That rehearing concluded by rescinding the exact same

binding precedent which had been cited by The United States Court
of Appeals for the Sixth Circuit, in order to affirm Brown's
sentence and endorse Brown's two previous convictions (for vio­
lating conspiracy and attempt statutes), as requisite crimes
to engage USSG §4B1.1. See United States v. Evans, 699 F.3d 858,
866-67 (6th Cir. 2012)(abrogated by Havis, 927 F.3d at 384,38687) .

It was this now defunct precedent which mandated Brown's

erroneous sentence be affirmed.

After the United States Court of Appeals for the Sixth Circuit
abrogated Evans by rehearing Havis en banc, Brown filed his Motion
to Recall the Mandate, at issue here,

The United States Court

of Appeals for the Sixth Circuit denied Brown's Motion. [Appendix
A]

Brown then requested rehearing, which was also denied. [Ap­

pendix D]

This Petition now follows.

-7-

REASONS FOR GRANTING PETITION

Here, This Court is asked to decide if the Sixth Circuit abused
its discretion for failing to recall its Mandate in this case.
It has already been established that Circuit Courts of Appeals
possess the "inherent" power to recall their own mandates. Cal­
deron v. Thompson, 523 U.S. 538,549, 118 S.Ct. 1489, 140 L.Ed.2d
728,743 (1998).

And the Sixth Circuit itself asserts this may

be done, "in effect reopening the case, without limit of time,
although only in exceptional circumstances." Patterson v. Haskins,
470 F.3d 645,661 (6th Cir. 2006)(quoting Patterson v. Crab, 904
F.2d 1179,1180 (7th Cir. 1990)).

In this case, Petitioner-Defendant Arian Brown was sentenced
as a Career Offender, pursuant to United States Sentencing Guidelines (USSG) §4B1.1.

Brown's predicate convictions consisted

of conspiracy to commit first-degree robbery, and attempt to
possess with intent to distribute cocaine. [RE 190, p.3:0rder]
As explained below, at the time of Brown's sentencing, under
then Sixth Circuit precedent, see United States v. Evans, 699
F.3d 858,866-67 (6th Cir. 2012), those convictions were adequate
to apply the enhancement.

However, after Brown's sentencing,

in fact on the very day Brown's conviction became "final," The
Sixth Circuit began the process which then put Brown's prior
convictions ultra vires of USSG §4Bl.l.

All without a single

word of USSG §4B1.1 ever being changed, revised, or amended.
The Sixth Circuit merely changed their previous position by re-

-8-

interpreting the exact same language. See United States v.
Havis, 927 F.3d 382 (6th Cir. 2019)(en banc).

In Evans, The Sixth Circuit held that the USSG Commentary, which
purported to add aiding and abetting, conspiracy, and attempt
crimes to the offenses already explicitly listed within the text
of the Guideline itself, did so properly under the authority
granted to the Sentencing Commission pursuant to 18 U.S.C. §994.
But after Brown's sentencing, The Sixth Circuit reviewed Evans
during the en banc rehearing in Havis.

It was subsequently decided

that the Sentencing Commission actually overstepped its authority
when it attempted to add inchoate crimes, through the use of
Commentary Application Notes, to the bonafide list of crimes
explicitly enumerated within the text of the Guideline itself.
Havis, at 443.

The Havis interpretation takes Brown's previous

convictions outside the range of crimes permitted for use to
invoke the Career Offender enhancement under USSG §4B1.1.

The issue here is whether Brown should get the benefit of this
new interpretation, or if instead, he should spend two extra
decades in prison due to The Sixth Circuit's mistake,

Havis

was granted rehearing en banc on the day Brown's conviction became "final." See Clay v. United States, 537 U.S. 522,524-25,
123 S.Ct. 1072, 155 L.Ed.2d 88,92-93 (2003); see also Sup. Ct.
Rule 13(1).

Brown filed a subsequent Motion to Correct Sentence

pursuant to 28 U.S.C. §2255 [RE 172], which was denied [RE 191]
because, unbelievably, The Sixth Circuit fails to recognize an

-9-

erroneous Career Offender enhancement as affecting substantial
rights, and correctable under 28 U.S.C. §2255. Bullard v. United
States, 937 F.3d 654 (6th Cir. 2019).

Due to the timing of the Havis reinterpretation, Brown then filed
his Motion to Recall the Mandate, which is the subject of the
instant Petition.

Brown properly alleged the extraoedinary cir-

cumstances, but was denied relief,

This denial creates a manifest

miscarriage of justice, and represents an abuse of discretion
by The Sixth Circuit, as Brown identified similar cases where
The Sixth Circuit has done the right thing, acting in the interests
of justice. See United States v. Solomon, 2019 U.S. App. LEXIS
19861 (6th Cir. 2019)(granting Motion to Recall the Mandate in
light of change in law by Havis); United States v. Murray, 20
F.Appx. 398,400 (6th Cir. 2001)(unpublished)(Recall of Mandate
in light of change in law).

In denying Brown's Motion, The Sixth Circuit relied on the fact
that "Brown has not alleged fraud or raised a clerical error."
[Appendix A, p.3]

However, literally two sentences prior to

that statement, The Sixth Circuit concedes these two reasons
are not exclusive, and that Brown may

t f!

demonstrate good cause

for that action through a showing of exceptional circumstances,
including, but not limited to 'fraud...[or] clerical mistake.

I It

[Id., pp.2-3 (emphasis added)(quoting Patterson v. Haskins, 470
F.3d 645,662 (6th Cir. 2006)(in turn quoting BellSouth Corp.
v. FCC, 96 F.3d 849,851-52 (6th Cir. 1996)).

-10-

The Sixth Circuit

then asserted a Second Circuit case which dismissed a motion
to recall mandate after a subsequent decision altered governing
law. See Bottone v. United States, 350 F.3d 59 (2d Cir. 2003).
But in Bottone, the intervening decision came after This Court
had already denied certiorari, hence the judgment was "final."
This case is markedly different, in that Brown's case was just
determined to be final on the day The Sixth Circuit began the
law change in the Circuit.

The Sixth Circuit recalled its Mandate in Murray because This
Court decided Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct.
2348, 147 L.Ed.2d 435 (2000), which then "call[ed] into question
the 'integrity' of" the earlier panel decision and amounted to
"extraoredinary circumstances that merited recall of the Mandate."
Murray, at 400 (citing Zipfel v. Halliburton Co., 861 F.2d 565,567
(9th Cir. 1988).

And in Solomon, the Mandate was recalled because

the case was not final when Havis was decided,

To correct their

error Murray, and not just any error, but the exact same error
in Solomon, yet not in this case, is the very definition of abuse
of discretion.

Such arbitrary and capritious action should never

be condoned, and indeed, should be reversed.

Simply put, a new offender could have a^dozen prior convictions
for attempted murder, and would receive the ten-year mandatory
minimum.

But Brown must serve twenty more years in prison than

the new offender because Brown once attempted to possess cocaine
with intent to distribute it.

This is a ridiculous result__that

-11-

needs to be corrected in the interests of justice, fundamental
fairness and judicial integrity,

This Court should remand for

recall of the Mandate "in order to prevent the actual inequity
that results when the court chooses which of many similarly situ­
ated defendants should be the chance beneficiary..." Griffith
v. Kentucky, 479 U.S. 314,328, 107 S.Ct. 708, 93 L.Ed.2d 649,661
(1987)(quoting United States v. Johnson, 457 U.S. 537,556,n.16,
102 S.Ct. 2579, 73 L.Ed.2d 202,218,n.16 (1982)).

CONCLUSION

Wherefore, Brown prays This Honorable Court grant this Petition
for writ of certiorari in the interests of justice and to decide
this substantial question of law.

Respectfully Submitted,

Arian Brown
Reg. No. 13117-032
Legal Mail - Open Only in the Presence of the Inmate
United States Penitentiary Canaan
PO Box 300
Waymart, PA 18472

-12-

